      REVIEW OF THE USE OF
INVENTORY MANAGEMENT SOFTWARE
   FEDERAL ACQUISITION SERVICE
 REPORT NUMBER A070164/Q/A/P08004

          March 21, 2008
                          REVIEW OF THE USE OF
                    INVENTORY MANAGEMENT SOFTWARE
                       FEDERAL ACQUISITION SERVICE
                     REPORT NUMBER A070164/Q/A/P08004

                             TABLE OF CONTENTS

                                                                        Page

REPORT LETTER                                                              1

EXECUTIVE SUMMARY                                                          2

INTRODUCTION                                                               4

    Background                                                             4

    Objectives, Scope, and Methodology                                     5

RESULTS OF REVIEW                                                          6

    Brief                                                                  6

    Findings and Recommendations                                           6

            Finding 1 – FAS’ Use of Manugistics Software                   6

               Conclusion                                                 12

               Recommendations                                            12

            Finding 2 – Possible Improvements to Manugistics Software     12

               Conclusion                                                 15

               Recommendations                                            15

    Management Controls                                                   16

APPENDICES

    Management Response                                                  A-1

    Report Distribution                                                  B-1
                            REVIEW OF THE USE OF
                      INVENTORY MANAGEMENT SOFTWARE
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A070164/Q/A/P08004

                                EXECUTIVE SUMMARY

PURPOSE

The objectives of our audit were to determine whether: (1) the Federal Acquisition
Service (FAS) was using the Manugistics, Incorporated (Manugistics) inventory
management software to the fullest extent possible, and if not, what were the reasons
for inconsistent usage; and (2) the Manugistics software could be improved to better
manage inventory in the depots and stores.

BACKGROUND

In August 2004, FAS awarded a contract for slightly more than $3 million to
Manugistics, for inventory software. Specific contract costs included $1.3 million for the
software license, $196,441 annually for two years for maintenance and support, a not-
to-exceed time-and-materials cost of $1.2 million for implementation, and a not-to-
exceed time-and-materials cost of $133,000 for implementation and training. A contract
modification to include travel expenses in the amount of $697,956 occurred on
December 10, 2004, which increased the total value of the contract to $3.7 million.
Manugistics software was used to assist inventory personnel, which included 37
Inventory Managers and 18 Store Coordinators, by forecasting demand and providing
replenishment recommendations for items sold at FAS’ two depots and 30 stores.
Overall, the goals of the software were to help FAS improve demand forecasting
accuracy, reduce inventory levels, and maintain high customer service. As of
October 1, 2007, costs paid to Manugistics for services rendered totaled $3.6 million.
The Manugistics software was implemented at commodity centers and depots in
September 2005.

RESULTS IN BRIEF

The review determined that approximately two years after implementation of the
Manugistics software, the majority of Inventory Managers and Store Coordinators were
not using it to the fullest extent possible. The review determined that this was partially
due to user resistance to change, but that FAS could help overcome this through
additional training in using the software, inventory management concepts, and
terminology; as well as, developing specific performance measures that fully realize the
benefits of the new software and removing redundant inventory management
functionality from the Legacy systems.

The review also identified the following areas that FAS should address to improve the
effectiveness of Manugistics software: (1) updating outdated costs, (2) incorporating

                                        3
comprehensive historical data, (3) considering transportation costs, and (4) including
contract data. These improvements could increase the accuracy of the software’s
replenishment recommendations and benefit Inventory Managers, Store Coordinators,
and/or FAS management.

RECOMMENDATIONS

We recommend the Commissioner of the Federal Acquisition Service:

   1. Provide additional training related to the proper and practical application of the
      Manugistics software and inventory management concepts and terminology.

   2. Develop meaningful performance measures to fully realize the benefits of the
      Manugistics software.

   3. Remove redundant inventory management functionality from the Legacy
      systems.

   4. Maintain up-to-date procurement and inventory costs in the Manugistics
      software.

   5. Conduct a cost/benefit study related to implementing improvements to
      transportation management information.

   6. Conduct a cost/benefit study related to incorporating contract data in the
      Manugistics software.

   7. Conduct a cost/benefit study related to adding data warehousing to maintain
      historical data regarding actions taken by Inventory Managers and Store
      Coordinators and routinely report this information to their supervisors.




                                       4
                            REVIEW OF THE USE OF
                      INVENTORY MANAGEMENT SOFTWARE
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A070164/Q/A/P08004

                                   INTRODUCTION

As part of the General Services Administration (GSA), Office of Inspector General’s
fiscal year 2007 Annual Audit Plan, we conducted a review of the Federal Acquisition
Service’s (FAS) use of Manugistics software program to manage inventory at its depots
and stores.

Background

In 2001 and 2002, Tompkins Associates performed an analysis of GSA’s Supply
Business Line to develop an alternative that would align the Office of Supply with
commercial best practices. The primary recommendation of their March 12, 2002, report
was for GSA to implement a “Best of Breed” supply chain suite of applications that
would project demand and plan for inventory replenishment., The report disclosed that
the new system would reduce inventory and improve labor efficiency, stocking patterns,
and customer service; and establish and maintain key performance indicators.

On May 11, 2004, FAS issued a Statement of Work to two firms for commercial off-the-
shelf software for demand forecasting, inventory optimization, and replenishment
planning software. On August 31, 2004, FAS placed a Delivery Order with Manugistics,
Incorporated using their Information Technology Schedule contract (GS-35F-0388K).
The Delivery Order was for slightly more than $3 million ($1.3 million for the software
license, $196,441 annually for two years for maintenance and support, a not-to-exceed
time-and-materials cost of $1.2 million for implementation, and a not-to-exceed time-
and-materials cost of $133,000 for implementation and training).                     On
December 10, 2004, a Delivery Order was issued to add $697,956 for travel costs,
bringing the total authorized cost to $3.7 million. As of October 1, 2007, costs paid to
Manugistics for services rendered totaled $3.6 million.

Per the Statement of Work, the new software was acquired to replace Legacy inventory
management functionality for GSA Global Supply, improve demand forecasting
accuracy, reduce inventory levels, and maintain high customer service.

In September 2005, FAS implemented the Manugistics software at the following
acquisition centers and depots:

      •   37 Inventory Managers and their supervisors in Kansas City, MO; Fort Worth,
          TX; and New York City, NY, who manage inventory in GSA’s depots.




                                       5
      •   18 Store Coordinators and their supervisors in Burlington, NJ; Atlanta, GA;
          French Camp, CA; and Anchorage, AK, who manage inventory in GSA’s
          stores, which are located at various locations within the United States and
          overseas.

Objectives, Scope, and Methodology

The objectives of our audit were to determine whether: (1) FAS was using the
Manugistics inventory management software to the fullest extent possible, and if not,
what were the reasons for inconsistent usage; and (2) the Manugistics software could
be better improved to manage inventory in the depots and stores.

To accomplish the objectives of our review, we performed the following steps:

      •   Reviewed the Statement of Work for the Manugistics software, contract
          award and cost information, and Manugistics Users Guides;

      •   Interviewed Central Office FAS officials to understand GSA’s purpose
          for and experience with implementing Manugistics software;

      •   Interviewed 27 Inventory Managers and acquisition center
          management officials in Fort Worth, TX; New York City, NY; and
          Kansas City, MO, regarding Manugistics software and obtained
          supporting documentation from them;

      •   Interviewed 10 Store Coordinators and management officials in French
          Camp, CA, and Burlington, NJ, regarding Manugistics software and
          obtained supporting documentation from them;

      •   Interviewed the contractor who serves as the expert on Manugistics
          software at GSA to understand issues related to implementation and
          operation of the software;

      •   Obtained statistical data and reviewed the results of other studies
          related to inventory management; and

      •   Observed the application of the software by Inventory Managers and
          Store Coordinators.

Our review, which was related to the FAS’ use of Manugistics software, focused on a
two year period (from September 2005 to September 2007). Our fieldwork was
conducted primarily from June through September 2007. The audit was conducted in
accordance with generally accepted Government auditing standards.




                                       6
                                 RESULTS OF REVIEW

Brief

We recognize that it typically takes time to transition an experienced workforce from a
system they have used for many years to a more modern one that incorporates new
terminology and techniques. This was evidenced at the time of our review by the fact
that the majority of Inventory Managers and Store Coordinators were not using the
Manugistics software to the fullest extent possible. Most users received training before
the software was implemented and again a year later, but the majority of users felt they
needed additional training in using the software, inventory management concepts, and
terminology. In addition, FAS needs to develop specific performance measures that
fully realize the benefits of the new software, as well as remove redundant inventory
management functionality from the Legacy systems. These actions may help FAS
overcome user resistance to change.

We also identified the following areas that FAS should address to improve the
effectiveness of Manugistics software: (1) updating outdated costs, (2) incorporating
comprehensive historical data, (3) considering transportation costs, and (4) including
contract data. These improvements could increase the accuracy of the software’s
replenishment recommendations and benefit Inventory Managers, Store Coordinators,
and/or FAS management.

Findings and Recommendations

Finding 1 - FAS’ Use of Manugistics Software

When we interviewed 27 Inventory Managers and 10 Store Coordinators (a total of 37
individuals) from June 5 through August 24, 2007, there were varying degrees of usage
of the Manugistics software. A few Store Coordinators did not use the software at all,
and other Store Coordinators and Inventory Managers used the software inconsistently.
As a result, the software’s ability to help FAS improve the accuracy of demand
forecasts, minimize inventory levels, and maintain high customer service was reduced.

At the time of our review, three of the ten Store Coordinators we interviewed (30
percent) did not use the software at all. The Inventory Managers and Store
Coordinators who did use the Manugistics software used it inconsistently. Examples
included:

        •   6 of 7 Store Coordinators who used the Manugistics software did not
            use its automatic replenishment feature or used it only minimally
            because they did not trust the system to automatically place orders in




                                            7
                      the correct quantities, and they wanted to review and recompute the
                      software-generated order quantities 1 .

              •       5 of 7 Store Coordinators and 15 of 27 Inventory Managers used
                      GSA’s older Customer Supply Center and FSS-19 systems to
                      manually recalculate replenishment recommendations generated by
                      Manugistics’ fulfillment module, and thereby verify the reasonableness
                      of Manugistics replenishment recommendations. The users advised
                      that they were skeptical of the software’s output and did not fully
                      understand how it made its projections and recommendations. Their
                      recalculation of replenishment amounts circumvents some of the time
                      savings that could accrue through use of the Manugistics software.

              •       5 of 7 Store Coordinators and 21 of 27 Inventory Managers overrode
                      Manugistics’ demand numbers (historical and projected) on the plan
                      analysis screen of the demand module and replenishment
                      recommendations generated by the fulfillment module with numbers
                      they believed to be correct. There are legitimate reasons to override
                      these numbers (such as when an item is new and the demand is
                      unknown, when demand spikes occur due to things like a troop surge,
                      or when purchases of an item are allocated among more than one
                      supplier 2 ). However, the users also indicated that they overrode
                      Manugistics’ projections and recommendations when they doubted the
                      new software’s output.

              •       The Store Coordinators and Inventory Managers worked with the
                      Manugistics software in very different ways. They either never
                      adjusted data in the demand module (such as locking or overriding
                      historical or forecast demand figures, and/or changing the various
                      parameters and factors used by the software to project demand and
                      make replenishment recommendations), rarely made changes, or
                      constantly manipulated the parameters, factors and demand numbers
                      until the software generated the replenishment recommendations they
                      desired.

              •       Four software users believed they fully understood the parameters,
                      factors and forecasts, as well as the effect of changes to them, but the
                                                            
1
 Automatic replenishment became available for Store Coordinators on August 24, 2006, and as of
October 17, 2007, only about 1 percent of items in the stores were designated for automatic
replenishment. FAS officials advised us that this number has increased slightly since then. Automatic
replenishment only became available to all Inventory Managers on August 13, 2007, so their usage of
that feature was not large at the time of our review. Accordingly, only 15 percent of items in the depots
were on automatic replenishment by October 17, 2007, but FAS officials advised us that this number has
increased since then.
2
 Purchases of some items are allocated among more than one National Industries for the Blind
workshop.

                                                               8
          remaining 30 users we interviewed indicated that they did not feel fully
          knowledgeable about the software’s features or completely confident
          about making changes to them.

Based on our interviews of the Inventory Managers, Store Coordinators, and other FAS
officials, the inconsistent use of the Manugistics software was attributed to the following
factors:

      •   Not enough training related to the correct and practical application of
          the software and inventory management concepts and terminology,

      •   No specific performance measures to fully realize the benefits of the
          new software, and

      •   Continued availability of inventory management features in the Legacy
          Systems.

Software Training:         A primary reason for the Inventory Managers and Store
Coordinators not using Manugistics consistently was due to insufficient training in the
proper use of the software. They felt that they were not sufficiently trained, and,
therefore, did not understand how the software made its demand forecasts and
replenishment recommendations or the impact of their changes to the various factors
and parameters, such as forecast demand, seasonality, and safety stock. As a result of
their lack of full understanding and comfort with the Manugistics software, they preferred
to use the Legacy systems they were already accustomed to, and believed these older
systems were more user-friendly and less cumbersome, and contained pertinent
features and information. For example, they liked that the Legacy systems presented
pricing information and displayed data on one screen. Because the Manugistics
software presents more data, they must look at multiple screens to view the data.

Initial training for most users was provided before Manugistics’ implementation in
September 2005 (July and August 2005). One year later (July and August 2006), FAS
provided most users with a second training session. The initial training was conducted
in a classroom setting and followed a pre-defined agenda. Managers at the depots and
acquisitions centers were allowed to specify the form the second training session would
take. Personnel in Fort Worth, TX; Kansas City, MO; and Burlington, NJ opted once
again for a classroom setting, whereas those in New York City, NY and French Camp,
CA opted for one-on-one training. With the one-on-one training, the user was given an
opportunity to ask questions about software features they did not understand.

Manugistics developed User Guides prior to the initial training sessions and updated the
User Guides in July 2006. In October 2006 and August 2007, they issued supplements
to describe changes in the software, and they continuously distribute Release Notes for
system changes. The contractor advised us that to make the User Guides more
beneficial, they could be updated, and a section could be added to explain more
features.

                                            9
Inventory Managers and Store Coordinators advised that this initial training was too
technical and not geared to the practical application of the software, inventory
management concepts, and terminology. In addition, the training was not conducted in
one location (Hawaii), one user advised us that she was absent for the training, and
FAS officials advised that the duration of the one-on-one training was not enough to
fully address user issues with the software. Further, the software continues to evolve
and has changed in significant ways since they received training. Examples of features
that were added after completion of the last training sessions were automatic
replenishment for the stores and the acquisition centers; order approval for the
acquisition centers; and new parameters related to minimum and maximum safety
stock, economic order quantity, and maximum order quantity.

Therefore, Inventory Managers and Store Coordinators felt a need for additional training
to help overcome their apprehension in using the features of Manugistics. Specifically,
they wanted training that covers practical application of the software and inventory
management concepts and terminology. Additionally, according to the Inventory
Managers and Store Coordinators, the User Guides for the new software were far too
technical in understanding how the software could assist them in demand forecasting
and replenishment recommendations. With additional training, users believe that they
would learn how to confidently use the new software properly and consistently.

Evidence of Software Benefits: The second reason noted by users for inconsistent
use of Manugistics was that the software’s goals of improved demand forecasting,
reduced inventory levels, and maintained high customer service have not been
demonstrated to users through improvement in key performance measures, and no
specific performance measures were developed to measure the benefits of the new
software.

At the time of our review, 23 of the 37 experienced Inventory Managers and Store
Coordinators we interviewed did not see much benefit to using the Manugistics software
and preferred the Legacy systems they were comfortable with using. Some features of
the Manugistics software represented significant enhancements over the Legacy
systems’ capabilities (such as considering a longer demand history when making
replenishment recommendations). However, FAS did not develop specific performance
measures that would demonstrate to users that the new software had helped them
improve inventory management accuracy and timeliness.

At the onset, FAS did not develop a Business Plan with corresponding performance
measures to assess how well results would compare to the program’s intended purpose
and to establish a mechanism for making changes when needed. As a result of not
developing a Business Plan and tracking the software’s performance, management was
unable to demonstrate to users that Manugistics software was meeting its goals such as
improved demand forecasting.



                                          10
As directed by the Government Performance and Results Act of 1993, Federal agencies
are held accountable for achieving program results. Accordingly, FAS needs to focus
its efforts at this juncture in developing meaningful performance measures for
evaluating the effectiveness of the Manugistics software.

FAS officials stated that they could have anticipated user opposition to the new software
better through the development and implementation of a written transition plan. In
particular, serious concerns over job security and extreme resistance to change from
users were some of the difficulties that could have been alleviated had FAS initially
addressed them.

Legacy Systems: The third reason noted by users for inconsistent use of Manugistics
centered on FAS allowing the continued use of the Legacy systems. They offered some
of the same inventory management capabilities as the Manugistics software. Some
Store Coordinators and Inventory Managers continued using their Legacy systems,
because they were more comfortable with using them than the new Manugistics
software.

FAS officials advised us that they were aware the Legacy systems’ continued
availability could impede full adoption of the new Manugistics software, and they need
to discontinue inventory management aspects of the Legacy systems.

Assessment of Software Performance: In the absence of performance data to
measure the benefits of the Manugistics software, we attempted to determine whether
Manugistics software had improved performance in certain key areas (backorders, stock
turns, fill rates, inventory levels, and customer satisfaction).

At the time of our review, only one acquisition center was able to respond with
information on backorders, stock turns, and fill rates. It indicated that performance by
the center had not improved in these key areas since the new software was
implemented, as follows:

                                    Performance Data for One Acquisition Center
                   Performance Item          May 1, 2005      August 10, 2007      Improved?
                     Back orders 3               947                1125              No
                                   4
                     Stock Turns                 4.64                3.69             No
                       Fill Rate 5           98.1 Percent       98.1 Percent          No
            Source: Fort Worth Acquisition Center




                                                            
3
 Back orders = Orders that could not be filled from stock
4
    Stock Turns = Annual Sales / Inventory Value
5
    Fill Rate = Percentage of the time an order can be filled from stock on hand


                                                               11
It should be noted that the change in performance shown in this and subsequent tables
in this report is not solely attributable to the implementation of the Manugistics software,
but also partly due to unforeseen events that would not be fully overcome by any
automated system, such as troop surges, an unusually active fire season, and loss of
staff in the aftermath of Hurricane Katrina. However, the data indicates that the benefits
envisioned by the implementation of Manugistics software have not been fully achieved.

Nationwide, based on data provided by FAS, fill rates worsened in Fiscal Year (FY)
2006, but improved in FY 2007, and stock turns worsened after Manugistics was
implemented, as indicated below:

                             Performance at One Acquisition Center
                                                                              Improved
                                                                                Since
       Performance Item           2005           2006             2007
                                                                             Manugistics
                                                                            Implemented?
            Fill Rate            94.2%           93.5%           96.3%           Yes
           Stock turns            3.9             4.0             3.5            No
     Source: Financial Management Specialist, Office of Global Supply

In addition, since the Manugistics software was implemented in September 2005, the
nationwide value of GSA’s Global Supply Inventory varied due to numerous factors, as
shown below:

                                Value of Global Supply Inventory
                                                                   Improvement Since
                Date                  Value (in millions)
                                                                 Manugistics Implemented?
     September 30, 2005                     $176.0                          N/A
     September 30, 2006                     $198.5                          No
     September 30, 2007                     $166.8                          Yes
    Source: Financial Management Specialist, Office of Global Supply

Customer satisfaction has improved in some areas since implementation of the
Manugistics software, but not in others, as shown in the following table:

                                       Customer Satisfaction

                                                Percent Satisfied         Improved Since
              Performance Item                                              Manugistics
                                              2005     2006     2007       Implemented?

     Overall satisfaction                     77%       80%     81%            Yes
     Satisfaction ordering supplies from      81%       84%     85%            Yes
     GSA
     Customers whose orders typically         65%       69%     78%            No
     had at least one out of stock item



                                                 12
     Customers who said GSA was               70%      69%      71%               Yes
     timely in filling out of stock orders
    Source: Director, Business Analysis Branch, Office of General Supplies and Services

Conclusion

At the time of our review, the majority of Inventory Managers and Store Coordinators
were not using the Manugistics software to the fullest extent possible. As a result, the
software’s ability to help FAS improve the accuracy of demand forecasts, minimize
inventory levels, and maintain high customer service was reduced. The inconsistent
use of the Manugistics software was attributed to the need to conduct additional
training, develop meaningful performance measures to fully realize the benefits of the
new software, and remove redundant inventory management functions in the Legacy
Systems. Therefore, the benefits of Manugistics will not be fully realized if the reasons
for inconsistent usage of the software are not addressed.

Recommendations

We recommend the Commissioner of the Federal Acquisition Service:

      1. Provide additional training related to the proper and practical application of
         the Manugistics software and inventory management concepts and
         terminology.

      2. Develop meaningful performance measures to fully realize the benefits of the
         Manugistics software.

      3. Remove redundant inventory management functionality from the Legacy
         systems.

Finding 2 – Possible Improvements to Manugistics Software

We determined that the Manugistics software could be improved to better manage
inventory in the depots and stores by:

         Updating outdated costs;
         Improving historical data;
         Incorporating transportation costs; and
         Including contract data

These improvements could increase the accuracy of the software’s replenishment
recommendations and benefit Inventory Managers and Store Coordinators, and/or FAS
management.

Outdated Costs: We determined that procurement and inventory cost numbers, were
very outdated. These costs are used by the software to compute the Economic Order

                                                13
Quantity, so outdated costs can result in the Manugistics software recommending
inaccurate order quantities and order frequencies.

The costs loaded to the software were computed in 1983 based on data for all of FY
1982. Using the Consumer Price Index, prices paid by urban consumers for a
representative basket of goods and services have more than doubled (up 108 percent)
from 1982 through September 30, 2007. Also, during that period, the organization of
FAS changed considerably, including a large reduction in the number of depots, and a
substantial increase in the number of stores.

Personnel from the FAS Office of the Controller explained that they recomputed
procurement and inventory holding costs for GSA items in 1985, 1986, 1990, and 1995,
and again in 1999. However, because of other priorities and projects, FAS officials
advised us that they have not incorporated the revised cost figures into GSA’s
automated systems.

Updating the procurement and inventory costs that are used by the Manugistics
software to calculate an item’s Economic Order Quantity could improve the accuracy of
the replenishment recommendation, thereby potentially reducing FAS inventory levels
and backorders, and increasing stock turns and customer satisfaction.

Historical Data: The Manugistics demand and fulfillment software modules did not
maintain an audit trail of the factors and parameters that are changed by the Inventory
Managers and Store Coordinators. This data could benefit supervisors of the Inventory
Managers and Store Coordinators.

Manugistics software bases its demand forecasts and replenishment recommendations
on various parameters and factors, including the following:

          •   Minimum and maximum safety stock,
          •   Lead times,
          •   On-hand quantity,
          •   Demand overrides and locks,
          •   Maximum seasonal terms, and
          •   Economic Order Quantity.

For most parameters, such as safety stock duration, economic order quantity, forecast
overrides and locks, the software shows that a change has been made, but there is no
record of when the change was made or who made the change. The demand and
fulfillment modules of the Manugistics software are planning tools and do not maintain
transaction level and audit detail. Accordingly, a data warehouse would need to be
created to store audit and transaction detail regarding when changes were made and by
whom and what on-hand quantities were as of a specific date.

Maintaining this information was initially considered, but it was deemed too costly to
develop the necessary data warehousing capabilities. Supervisors of Inventory

                                          14
Managers and Store Coordinators agreed that knowing when, where, how, and by
whom changes were made would be useful for monitoring the work of their staff.

Transportation Costs: The Manugistics software did not factor in transportation costs
for in-bound freight when computing replenishment frequency and quantities, and FAS
has never had this information to help them manage inventory. FAS did not incorporate
in the contract with Manugistics a requirement that the software consider transportation
costs when developing replenishment recommendations. According to inventory
personnel, adding this information to the equation could reduce the costs of replenishing
stock, because purchasing larger quantities less frequently could enable use of lower
truckload rates instead of higher less-than-truckload rates. Manugistics offers a
transportation management module, but GSA chose not to adopt it. FAS officials
advised us that they expect to implement significant transportation management
improvements as part of their Supply Operations Business Model Modernization
initiative.

FAS officials estimated that transportation costs averaged four percent for in-bound
freight and six percent of sales for out-bound freight, so changes to transportation costs
could make a significant difference in GSA’s profitability.

It should be noted that Inventory Managers and Store Coordinators can set minimum,
maximum, and incremental order quantities in the Manugistics software so its
recommended order quantity is in certain order quantities (pallet, truckload, sea van,
etc.), thus optimizing transportation costs. FAS officials advised us that some Store
Coordinators and Inventory Managers already do this for paper products.

Contract Coverage: The Manugistics software did not contain information on whether
items in the depots and stores have contract coverage. FAS officials advised us they
requested this data when the software was implemented, but there was not a reliable
way to identify contract coverage because no single field existed in FSS-19 for this
information.

GSA inventory management personnel stated that the accuracy of replenishment
recommendations is affected by whether an item has contract coverage, so
incorporating contract coverage data would improve the software and inventory
management at GSA. Orders for items without contract coverage or soon-expiring
coverage might need to be placed much sooner and/or for larger quantities. They
advised that while contract coverage is available from other sources, it would be easier
if this could be shown by the Manugistics software, and that applying this information to
Manugistics’ replenishment recommendations could make the recommendations more
timely and accurate.

Many items did not have contract coverage as of October 4, 2007, as shown in the table
on the following page:



                                           15
                                                                      Total Items       Percent of Items
               Acquisition                       Items Without       Managed by         Without Contract
                 Center                        Contract coverage   Acquisition Center      Coverage
                New York                              247                1,631               15.1 6
               Kansas City                            131                1,819               7.2 7
               Fort Worth                             159                1,437               11.1
              Source: Inventory Management Section Chief, GSA Heartland Global Supply

Conclusion

The Manugistics software could be improved to manage inventory in the depots and
stores by updating procurement and holding costs, and incorporating transportation
costs and contract coverage information. By making these improvements, the
Manugistics software could generate more accurate replenishment recommendations,
increase Inventory Manager/Store Coordinator reliance on the system and reduce the
frequency of changes to the recommended amounts. Furthermore, improving the
historical data maintained by the software could enhance managers’ ability to oversee
Inventory Manager and Store Coordinator changes.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

              4. Maintain up-to-date procurement and inventory costs in the Manugistics
                 software.

              5. Conduct a cost/benefit study related to implementing improvements to
                 transportation management information.

              6. Conduct a cost/benefit study related to incorporating contract data in the
                 Manugistics software.



                                                            
6
 The Director of the Inventory and Commodity Management Division in New York stated that the number
was 39 percent when expired National Stock Numbers were included (664 out of 1,702 items).
7
 In February 2007, the Kansas City acquisition center reported 19.5 percent of items without contract
coverage (357 out of 1,829 items).


                                                                   16
       7. Conduct a cost/benefit study related to adding data warehousing to maintain
          historical data regarding actions taken by Inventory Managers and Store
          Coordinators and routinely report this information to their supervisors.




Management Comments

The Commissioner agreed with our findings and recommendations and is in the process of
taking corrective action. The Commissioner’s comments are included as Appendix A to this
report.

Management Controls

The examination of management controls was limited to those necessary to achieve the
specific objectives and scope of the audit. Our results are identified in the body of this
report.




                                            17
APPENDICES
      REVIEW OF THE USE OF
INVENTORY MANAGEMENT SOFTWARE
   FEDERAL ACQUISITION SERVICE
 REPORT NUMBER A070164/Q/A/P08004




               A-1
                             REVIEW OF THE USE OF
                       INVENTORY MANAGEMENT SOFTWARE
                          FEDERAL ACQUISITION SERVICE
                        REPORT NUMBER A070164/Q/A/P08004


                                REPORT DISTRIBUTION



                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                         3

Assistant Inspector General for Auditing (JA & JAO)                   2

Assistant Inspector General for Investigations (JI)                   1

Internal Control and Audit Division (BEI)                             1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)      1

Deputy Assistant Inspector General for Contract Audits (JA-C)         1




                                            B-1
